HHS/OIG-Audit--"Health Care Management's skilled nursing facility
billings and costs for ancillary medical supplies (A-09-96-00079)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Health Care Management's Skilled Nursing Facility Billings and Costs
for Ancillary Medical Supplies for the Period January 1, 1993 through December
31, 1994," (A-09-96-00079)
January 23, 1997
Complete Text of Report is available in PDF format
(299 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report discloses that Health Care Management's (HCM) billings to Medicare
for ancillary medical supplies used in its three skilled nursing facilities
(SNFs) were generally in compliance with Medicare's rules, but that significant
costs were misclassified as ancillary on the medicare cost reports for the 2-year
period ended December 31, 1994. The costs should have been classified as routine.
We did not quantify the financial impact of misclassified costs as our review
was limited to determining what types of items and services that were claimed
as ancillary were unallowable as such.
We recommended that Mutual of Omaha ensure that HCM submits revised cost reports
for its three SNFs and that the revised cost reports reclassify all costs for
routine items and services that were previously claimed an ancillary medical
supplies.